                                        National Science Foundation
                                             4201 Wilson Boulevard
                                            Arlington, Virginia 22230


Office of Inspector General




MEMORANDUM

DATE:

TO:                David A. Elizalde, Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Deborah H. Cureton
                   Associate Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-07-1-007, Audit of Compuware Corporation’s
         Accounting System, Incurred Costs, and Indirect Cost Rates for Fiscal Years 2001
         through 2004


In response to NSF’s request for audit support, we contracted with the Defense Contract Audit
Agency (DCAA), Great Lakes Branch Office, to perform an accounting system review and an
incurred cost audit of Compuware Corporation (Compuware) for the period April 1, 2000
through March 31, 2004 [Fiscal Years (FYs) 2001 through 2004] on two NSF cost-plus-fixed-fee
contracts: Contract No. DIS-96140541 which had claimed costs during the period of $13,926,028
and is ready to close-out, and Contract No. DIS-01379032 which had claimed costs during the
period of $14,310,965 and is still active. The purpose of the contracts is to provide information
technology support services for NSF, Division of Information Systems (DIS).

The objectives of the audit were to:

           •    Determine whether Compuware’s accounting system and internal controls are
                adequate for accumulating and billing costs on government contracts, and for
                administering and monitoring its NSF contract in compliance with contract terms and
                federal requirements;
           •    Determine whether costs charged to both NSF contracts by Compuware are
                allowable, allocable and reasonable in accordance with contract terms and applicable
                government acquisition regulations; and


1
 Contract DIS-9614054 was in effect during FY 2001 and was completed in FY 2003.
2
 Contract DIS-0137903 started in FY 2002. There are three task orders under this contract that are still active and
will expire on April 30, 2007.
                                                                NSF OIG Audit Report No. OIG-07-1-007


          •   Recommend Contracting Officer-determined indirect cost rates for the years audited,
              FY 2001 through 2004.

DCAA issued two audit reports to address these objectives.3 The audits were performed in
accordance with generally accepted government auditing standards. The DCAA audit reports are
included as attachments to this memorandum.

DCAA found that Compuware’s accounting system was acceptable for accumulating and billing
costs on government contracts, and Compuware’s internal controls were generally adequate
except for determining allowable indirect costs. In addition, the entire XXXXXX Compuware
claimed on Contract No. DIS-9614054 was considered allowable, allocable and reasonable in
accordance with contract terms and applicable government regulations, even though a portion of
Compuware’s proposed overhead rates was questioned. Compuware properly used the
contractually agreed-upon overhead ceiling rates to calculate its claimed overhead costs for this
contract, and these ceiling rates were less than the audit-determined overhead rates after
deducting questioned costs.

However, the auditors questioned a total of $320,418 (XXX) of the XXXXXXX claimed on
Contract No. DIS-0137903 for FYs 2002 through 2004, made up of $250,525 in unallowable and
unallocable overhead and $69,893 of associated general and administrative (G&A) costs. A
breakdown of questioned costs for Contract No. DIS-0137903 by FY is summarized below.

                                              Questioned Costs for NSF Contract
                                                        DIS-0137903
                                          FY 2002    FY 2003     FY 2004    Total

    Subcontractor Hourly Expense              2482          23926      76113    102521
    Rebilled Expenses                         2457          59629      31498     93584
    Employee Welfare Costs                    3232          10294      11975     25501
    Overhead Questioned due to rate           8171          93849     119586    221606
    Overhead Questioned due to base          19804           9115          0     28919
    Total Overhead Questioned                27975         102964     119586    250525
    Associated G&A Questioned                 3416          29561      36916     69893
    Total Questioned Costs                   31391         132525     156502    320418

DCAA questioned Compuware’s proposed overhead rates for every FY audited, and for FY 2002
through 2004 the questioned overhead rates were XXX, XXX and XXXX respectively.4
Applying DCAA’s questioned overhead rates to Compuware’s proposed overhead base for this
contract resulted in DCAA’s questioning $221,606 of Compuware’s proposed overhead claim
for this contract (i.e., questioned due to rate5). This $221,606 was questioned because
Compuware improperly included subcontractor hourly expense and rebilled expense costs in the

3
  Report on Audit of FYs 2001, 2002, 2003, and 2004 Incurred Costs dated September 29, 2006, and Report on Audit
of Postaward Accounting System Review dated November 24, 2006.
4
  Reference Exhibit A of Report on Audit of FYs 2001, 2002, 2003 and 2004 Incurred Costs, dated September 29,
2006.
5
  Questioned due to rate = Contractor proposed base x questioned rate.



                                                       2
                                                                   NSF OIG Audit Report No. OIG-07-1-007


Overhead pool (these are direct contract costs), and claimed unallowable employee welfare costs
that were incurred for gifts, contributions, parties, and picnics. DCAA also questioned $28,919
of Compuware’s proposed Overhead for this contract because Compuware proposed applying its
overhead rate to the subcontract labor which DCAA had reclassified to a category of non-
overhead-bearing direct costs for this contract (i.e., questioned due to base6). DCAA found that
it was not Compuware’s practice to include subcontract labor in its overhead allocation base
(direct labor dollars) and also found no causal or beneficial relationship between Compuware’s
overhead pool (which consists mainly of fringe benefits for Compuware employees) and this
subcontract labor. Lastly, associated G&A questioned of $69,893 was derived by applying
Compuware’s proposed/audit-determined G&A rates for each year to the questioned overhead
costs.

DCAA considers the Contract No. DIS-0137903 participation in unallowable Employee Welfare
Costs7 to be subject to penalties, because this contract provides for penalties if the contractor
claims expressly unallowable costs8 and the Employee Welfare Costs questioned were
specifically named and stated to be unallowable in FAR 31.205-13, Employee morale, health,
welfare, etc… The total amount of penalty calculated by DCAA is $25,074 ($2,887 for FY 2002,
$10,207 for FY 2003 and $11,990 for FY 2004)9, which represents the amount of expressly
unallowable costs which Compuware allocated to Contract DIS-0137903. DCAA noted that
penalties can be waived by the Contracting Officer under certain circumstances specified in FAR
42.709-5. DCAA’s recommended assessment of penalties was not agreed to by Compuware and
must be settled by NSF during negotiations with Compuware.

In recommending Contracting Officer-determined indirect cost rates, DCAA questioned a total
of $1,079,936 (XXX) out of XXXXXXX claimed for FYs 2001 through FY 2004 in the branch
overhead pool because Compuware improperly included $412,012 subcontractor hourly expense
and $396,748 rebilled expense costs in the overhead pool (these are direct contract costs), and
claimed $271,196 unallowable employee welfare costs that were incurred for gifts, contributions,
parties, and picnics.10 As a result, the questioned overhead rates for FYs 2001 through 2004 are
XXX, XXX, XXX, and XXXX respectively and the audit-determined overhead rates for FYs
2001 through 2004 are XXXX, XXXX, XXXX, and XXXX, respectively.11 Compuware’s
proposed/audit-determined G&A rates for FYs 2001 through 2004 are XXXX, XXXX, XXXX,
and XXXX, respectively.


6
  Questioned due to base = Questioned base x auditor’s recommended rate (proposed rate less questioned rate).
7
  Participation is defined as this contract’s direct labor as a percentage of Compuware’s total direct labor XXXX for
FY 2002, XXXX for FY 2003, XXXX for FY 2004) multiplied by the unallowable Employee Welfare Costs
claimed in Compuware’s Overhead pool ($98,362 in FY 2002, $36,712 in FY 2003 and $33,355 in FY 2004).
8
  FAR 52.242-3, Penalties for Unallowable Costs, was incorporated into the contract by reference, and provides that
the contractor shall not include in any proposal any cost which is unallowable as defined in Part 31 of the FAR.
9
  Reference Schedules E-1 and G-1 of the DCAA audit report on incurred costs. The penalty for unallowable
Employee Welfare claimed for FY 2002 was recommended for penalty, but was not presented in a separate schedule
because it was below the $10,000 waiver threshold specified in FAR 42,709-5.
10
   Reference Note 3 to Exhibit A of Report on Audit of FYs 2001, 2002, 2003, 2004 Incurred Costs, dated
September 29, 2006.
11
   Reference Exhibit A of Report on Audit of FYs 2001, 2002, 2003, 2004 Incurred Costs, dated September 29,
2006.



                                                         3
                                                       NSF OIG Audit Report No. OIG-07-1-007


DCAA stated that the cause of the questioned costs was Compuware’s lack of written policies
and procedures to exclude the unallowable and unallocable indirect costs from the overhead pool
as the claims to NSF are being prepared. This control weakness prevented Compuware from
administering and monitoring its NSF contract in compliance with contract terms and federal
requirements. However, DCAA reported that Compuware was in the process of taking
corrective action to implement new procedures to correct this condition, as evidenced by its
preparation of preliminary incurred cost submissions for FYs 2005 and 2006. Compuware told
DCAA it would exclude the entire Employee Welfare Costs account from its incurred cost
submissions to NSF. In addition, Compuware agreed to exclude from its indirect cost pools any
Subcontractor Hourly Expenses and Rebilled Expenses that can be specifically identified to a
contract as a direct cost, and classify these costs as non-Overhead-bearing direct costs as
appropriate. DCAA did not confirm these statements by verifying Compuware’s actual incurred
cost submissions for FYs 2005 and 2006.

Compuware agreed with the findings in the DCAA reports, with the exception of the penalty
charges. We consider the issues in the audit reports to be significant. The findings in the DCAA
audit reports should not be closed until NSF verifies that our recommendations have been
adequately addressed and proposed corrective actions have been satisfactorily implemented.

Recommendations

We recommend that the NSF Director of the Division of Acquisition and Cooperative Support:

   1. Accept the FY 2001-2003 claimed costs for Contract DIS-9614054. The claimed,
      allowable and questioned amounts for each FY audited are shown in Exhibit J of the
      attached DCAA audit report on incurred costs.

   2. Reduce the FY 2002-2004 claimed costs for Contract DIS-0137903 by $320,418. The
      claimed, allowable and questioned amounts for each FY audited are shown in Exhibit J of
      the attached DCAA audit report on incurred costs.

   3. Resolve the $25,074 of penalties recommended by DCAA for claiming expressly
      unallowable costs on Contract DIS-0137903 ($2,887 for FY 2002, $10,207 for FY 2003,
      and $11,990 for FY 2004).

   4. Establish final indirect cost rates for FYs 2001 through 2004, making the reductions to
      Compuware’s proposed rates as recommended and summarized in Exhibit A of the
      attached DCAA audit report on incurred costs.

   5. Request Compuware to review and resubmit as needed its incurred cost submissions for
      FYs 2005 and 2006, and confirm to NSF that unallowable Employee Welfare Costs have
      been excluded from these submissions, and that any Subcontractor Hourly Expenses and
      Rebilled Expenses that can be specifically identified to a contract as a direct cost have
      been properly excluded from indirect cost pools and reclassified as non-Overhead-
      bearing direct costs when appropriate.




                                               4
                                                       NSF OIG Audit Report No. OIG-07-1-007



   6. To prevent similar issues from recurring in the future, ensure that Compuware has
      established written policies and procedures requiring that unallowable Employee Welfare
      Costs are properly excluded from all billings, claims and proposals applicable to NSF
      contracts, and that any Subcontractor Hourly Expenses and Rebilled Expenses that can be
      specifically identified to a contract as a direct cost have been properly excluded from
      indirect cost pools and reclassified as non-Overhead-bearing direct costs whenever
      appropriate.

We are providing a copy of this memorandum to the OIRM Directorate/Division of Information
Services (DIS). The responsibility for audit resolution rests with DACS. Accordingly, we ask
that no action be taken concerning the report’s findings without first consulting DACS at (703)
292-8242.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

   •   Reviewed DCAA’s approach and planning of the audit;
   •   Monitored the progress of the audit at key points;
   •   Coordinated periodic meetings with DCAA and OIG management to discuss audit
       progress, findings and recommendations;
   •   Reviewed the audit report prepared by DCAA to ensure compliance with Government
       Auditing Standards and Office of Management and Budget Circulars; and
   •   Coordinated issuance of the audit report.

DCAA is responsible for the attached audit reports on Compuware and the conclusions
expressed in the reports. The NSF OIG does not express any opinion on Compuware’s incurred
cost submissions, indirect cost rates, accounting system, or the conclusions presented in DCAA’s
audit reports.

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Jannifer Jenkins at (703) 292-4996 or David Willems
at (703) 292-4979.



Attachments: DCAA Audit Report on Compuware’s Incurred Costs for FYs 2001 through 2004
            for NSF Contracts DIS-9614054 and DIS-0137903

             DCAA Audit Report on Compuware’s Accounting System

cc: Carolyn Miller, IRM/DIS
    Mary Santonastasso, Director, DIAS



                                               5
            DEFENSE CONTRACT AUDIT AGENCY
           AUDIT REPORT NO. 2261–2006G 17740 016

                                                                  November 24, 2006

PREPARED FOR: National Science Foundation
              Office of Inspector General
              ATTN: Ms. Sherrye McGregor, JD
              4201 Wilson Blvd.
              Stafford II - Suite 705
              Arlington, VA 22230

PREPARED BY:     DCAA Great Lakes Branch Office
                 38701 Seven Mile Road, Suite 460
                 Livonia, MI 48152-1091
                     Telephone No.     (734) 805-3080
                     FAX No.           (734) 805-3090
                     E-mail Address    dcaa-fao2261@dcaa.mil

SUBJECT:         Report on Audit of Postaward Accounting System Review

REFERENCES:      Relevant Dates: See Page 5

CONTRACTOR:      Compuware Corporation
                 One Campus Martius
                 Detroit, MI 48226

REPORT RELEASE RESTRICTIONS: See Page Error! Bookmark not defined.

                                                                              Page
CONTENTS:        Subject of Audit                                              1
                 Scope of Audit                                                1
                 Results of Audit                                              2
                 Contractor Organization and Systems                           3
                 DCAA Personnel and Report Authorization                       5
                 Audit Report Distribution and Restrictions                    6
                 Appendix                                                      7




                       XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 2261-2006G 17740 016


                                   SUBJECT OF AUDIT


       As you requested on December 16, 2005, we examined Compuware Corporation’s (CC)
accounting system as of September 18, 2006, to determine whether it is adequate for
accumulating costs under Government contracts and whether the billing procedures are adequate
for the preparation of cost reimbursement claims, i.e., interim public vouchers and progress
payments.

       Compuware Corporation is responsible for establishing and maintaining an adequate
accounting system for accumulating and billing costs under Government contracts. Our
responsibility is to express an opinion on the adequacy of the accounting system based on our
examination.



                                    SCOPE OF AUDIT


       We conducted our examination in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the examination to
obtain reasonable assurance about whether the data and records examined are free of material
misstatement. An examination includes:

        • obtaining an understanding of internal control for accumulating and billing costs
          under Government contracts;
        • examining, on a test basis, evidence supporting the amounts and disclosures in the
          data and records evaluated;
        • assessing the accounting principles used and significant estimates made by the
          contractor; and
        • evaluating the overall data and records presentation.

       We evaluated the accounting system using the applicable requirements contained in:

        • Federal Acquisition Regulation (FAR) and
        • National Science Foundation Acquisition Regulations (NSFAR).

        Our examination included an evaluation to determine if the accounting system provides
for the following procedures:

        • direct and indirect costs are appropriately identified, accumulated, and reported;
        • unallowable costs are appropriately identified and segregated;
        • indirect costs are allocated equitably and consistently to contracts and other cost
          objectives;




                            XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 2261-2006G 17740 016


         • direct and indirect labor costs are identified to intermediate or final cost objectives
           by the timekeeping system and charged to appropriate cost objectives by the labor
           distribution system;
         • indirect billing rates are acceptable to the contracting officer or contract auditor in
           accordance with FAR 42.704;
         • cost information for billings is based on currently posted accounting data; and
         • contract billings are reviewed by management to assure compliance with contract
           terms and provisions, e.g., frequency of billings, special withholding provisions,
           contract unallowables, etc.

       Our examination was performed from June to September 2006.

       We believe that our examination provides a reasonable basis for our opinion.

        Our examination did not include tests to determine whether internal control is in
operation or operating effectively. Because of inherent limitations in any internal control,
misstatements due to error or fraud may occur and not be detected. Also, accounting system
internal control is subject to the risk that the internal control may become inadequate because of
changes in conditions.



                                    RESULTS OF AUDIT


       In our opinion, Compuware’s accounting system is adequate for accumulating and billing
costs under Government contracts. At your request, we have completed a Standard Form 1408,
Pre-Award Survey of Prospective Contractor Accounting System (Appendix, see page 7).

        Our examination was limited to determining whether Compuware’s accounting system is
adequate for accumulating and billing costs under Government contracts. We did not perform a
comprehensive examination of the contractor’s overall accounting system and its related internal
control. Accordingly, we express no opinion on Compuware’s system of internal control taken
as a whole.

    We discussed the results of our examination with XXXXXXX, XXXXXXXXXXXXXX
XXXX, and XXXXXXX, XXXXXXXXXX, in an exit conference held on September 18, 2006.




                                                2

                             XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 2261-2006G 17740 016


                     CONTRACTOR ORGANIZATION AND SYSTEMS


1.      Organization

       Compuware Corporation (CC) was incorporated in the state of Michigan in 1973.
Compuware is primarily engaged in software development and information technology services.
Revenue for the fiscal year ended March 31, 2004, was approximately XXXXX Million, of this
amount, U.S. Government sales are less than XXX percent. Compuware maintains locations
throughout the United States and worldwide. Compuware currently employs approximately
XXXXX employees.

2.      Accounting System

        Compuware's accounting period is from April 1 to March 31. CC maintains a job order
accounting system for contract costs. CC maintains an accounting system on the accrual basis in
accordance with Generally Accepted Accounting Principles. CC's accounting system is posted
on a current basis. Appropriate adjusting entries are made at the end of each month and year.
The accounting firm of Deloitte & Touche, LLC audited CC's FY’s 2001, 2002, 2003, and 2004
financial statements. The contractor currently uses the Oracle accounting software program. In
our opinion, CC's accounting system is adequate, for the accumulation, reporting, and billing of
costs on government contracts. In these reviews, the internal controls were evaluated to the
extent necessary to make a determination of the allowablility and allocability of the transactions
tested.

        Compuware maintains a job cost accounting system which is fully integrated in the
overall accounting system, wherein contracts are assigned individual project numbers and direct
costs are identified and charged to those numbers. Indirect costs are identified with and
accumulated under individual departments, which in turn are identified to the various indirect
cost pools. Indirect expenses are recorded and billed to projects using predetermined rates. The
predetermined rates are adjusted to actual rates at year end. The following schedule describes
Compuware’s indirect cost pools and related allocation bases, and the type of effort normally
charged direct and indirect:

                            Indirect Cost Pools and Allocation Bases

        Indirect Cost Pool                                   Allocation Base
XXXXXXXXXXXXXXXXXXXX                                XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXX                                XXXXXXXXXXXXXXXXXXXXXXX


     The Following Effort Is Normally Charged Direct:
        • Direct time of direct labor employees
        • Premium (overtime, shift, field) time of direct labor
        • Temporary help to perform direct effort



                                                3

                              XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 2261-2006G 17740 016

     The Following Effort Is Normally Charged Indirect:
        XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
        XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
        XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
        XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
        XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
        XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
        XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
        XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
        XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

3.     Billing System:

        The billings for the NSF contracts are prepared at the branch location in Virginia and
submitted directly to the NSF. Billings are prepared directly from the cost accounting records
which are reconcilable by cost element for all cost-reimbursable work. Direct labor hours are
included in the cost accounting records for all contracts. The contractor’s indirect billing rates
are established in accordance with FAR 42.704.




                                                4

                             XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 2261-2006G 17740 016


                                     DCAA PERSONNEL

Primary contacts regarding this audit:                                 Telephone No.
         Judy C. Heater-Unsworth, Auditor                              (313) 363-8046
         Norman S. Rea, Supervisory Auditor                            (734) 805-3083

Other contacts regarding this audit report:
         Richard J AhKao, Branch Manager                               (734) 805-3080
         Marc Parvin, Financial Liaison Advisor                        (703) 767-2271

                                                                          FAX No.
         Great Lakes Branch Office                                     (734) 805-3090
         Marc Parvin, Financial Liaison Advisor                        (703) 767-2279


                                                                       E-mail Address
         Great Lakes Branch Office                                 dcaa-fao2261@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil/.


                                     RELEVANT DATES

National Science Foundation Request for Audit Dated December 16, 2005; Received
December 16, 2005.


AUDIT REPORT AUTHORIZED BY:



                                                             Brian M. Unsworth
                                                       /for/ RICHARD J. AHKAO
                                                             Branch Manager
                                                             DCAA Great Lakes Branch Office




                                                5

                             XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 2261-2006G 17740 016


               AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
                                                      E-mail Address
National Science Foundation                    smcgrego@nsf.gov
Office of Inspector General
ATTN: Ms. Sherrye McGregor, JD                 dwillems@nsf.gov
4201 Wilson Blvd.
Stafford II - Suite 705
Arlington, VA 22230

Compuware Corporation
One Campus Martius
Detroit, MI 48226
(Copy furnished thru ACO)

Defense Contract Audit Agency                  dcaa-srfla-nondod@dcaa.mil
DCAA Sr. Financial Liaison Advisor
ATTN: OAL - Sr. Non-DOD FLA Marc Parvin
8725 John J. Kingman Road, Suite 2135                    Telephone
Fort Belvoir, VA 22060-6219                    (703) 767-2271


XXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                          6

                            XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 2261-2006G 17740 016                                                                                                APPENDIX


                                                                                SERIAL NO. (For surveying activity use)         OMB No.: 9000-0011
 PREAWARD SURVEY OF PROSPECTIVE CONTRACTOR                                                                                      Expires: 10/31/97
            ACCOUNTING SYSTEM                                                   PROSPECTIVE CONTRACTOR:
                                                                                Compuware Corporation, Detroit, Michigan
Public reporting burden for this collection of information is estimated to average 24 hours per response, including the time
for reviewing instructions, searching existing data sources, gathering and maintaining the data needed, and completing and
reviewing the collection of information. Send comments regarding this burden estimate or any other aspect of this collection
of information, including suggestions for reducing this burden, to FAR Secretariat (VRS), Office of Federal Acquisition and
Regulatory Policy, GSA, Washington, DC 20405; and to the Office of Management and Budget, Paperwork Reduction
Project (9000-0011), Washington, DC 20503.
                                                      SECTION I - RECOMMENDATION
1.     PROSPECTIVE CONTRACTOR'S ACCOUNTING SYSTEM IS ACCEPTABLE FOR AWARD OF PROSPECTIVE CONTRACT
      YES                          c NO (Explain in 2.
                                   d
                                   e
                                   f
                                   g

c YES, WITH A RECOMMENDATION THAT A FOLLOW ON ACCOUNTING SYSTEM REVIEW BE PERFORMED AFTER
d
e
f
g
             (Explain in 2. NARRATIVE)
2.     NARRATIVE (Clarification of deficiencies, and other pertinent comments. If additional space is required, continue on plain sheets of paper.)


     We consider the contractor’s system to be adequate for the accumulation and billing of costs on government
     contracts.




                                                                                                                       IF CONTINUATION SHEETS
                                                                                                                       ATTACHED - MARK HERE           c
                                                                                                                                                      d
                                                                                                                                                      e
                                                                                                                                                      f
                                                                                                                                                      g
                    a. SIGNATURE AND OFFICE (Include typed or printed name)                             b. TELEPHONE NO.             c. DATE SIGNED
 3. SURVEY          //s// Judy Heater-Unsworth, Senior Auditor
 MADE BY
                    DCAA, Great Lakes Branch Office                                                     313/363-8046                 11/20/06
                    a. SIGNATURE AND OFFICE (Include typed or printed name)                             b. TELEPHONE NO.             c. DATE SIGNED
 4. SURVEY          //s// Norman S. Rea, Supervisory Auditor
 REVIEWING
 OFFICIAL
                    DCAA, Great Lakes Branch Office                                                     734/805-3083                 11/20/06
AUTHORIZED FOR LOCAL REPRODUCTION                                                                         STANDARD FORM 1408 (REV. 9-88)
Previous edition is usable                                                                                Prescribed by GSA
                                                                                                          FAR (48 CFR) 53.209-1(f)




                                                                           7

                                               XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 2261-2006G 17740 016                                                                                       APPENDIX


                                             SECTION II - EVALUATION CHECKLIST
                                                                                                                                    NOT
MARK "X" IN THE APPROPRIATE COLUMN (Explain any deficiencies in SECTION 1 NARRATIVE)                                  YES    NO   APPLIC
                                                                                                                                   -ABLE
1. EXCEPT AS STATED IN SECTION I NARRATIVE, IS THE ACCOUNTING SYSTEM IN ACCORD                                        X
   WITH GENERALLY ACCPETED ACCOUNTING PRINCIPLES APPLICABLE IN THE
   CIRCUMSTANCES?
2. ACCOUNTING SYSTEM PROVIDES FOR

     a. Proper segregation of direct costs from indirect costs.                                                       X

     b. Identification and accumulation of direct costs by contract.                                                  X

     c. A logical and consistent method for the allocation of indirect costs to intermediate and final cost           X
        objectives. (A contract is a final cost objective.)
     d. Accumulation of costs under general ledger control                                                            X

     e. A timekeeping system that identifies employees' labor by intermediate or final cost objectives.               X

     f.    A labor distribution system that charges direct and indirect labor to the appropriate cost objectives.     X

     g. Interim (at least monthly) determination of costs charged to a contract through routine posting of            X
        books of account.
     h. Exclusion from costs charged to government contracts of amounts which are not allowable in                    X
        terms of FAR 31, Contract Cost Principles and Procedures, or other contract provisions.
     i.    Identification of costs by contract line item and by units (as if each unit or line item were a separate   X
           contract) if required by the proposed contract.
     j.    Segregation of pre-production costs from production costs.                                                                X

3.        ACCOUNTING SYSTEM PROVIDES FINANCIAL INFORMATION:

     a. Required by contract clauses concerning limitation of cost (FAR 52.232-20 and 21) or limitation on            X
        payments (FAR 52.216-16).
     b. Required to support requests for progress payments.                                                           X

4.    IS THE ACCOUNTING SYSTEM DESIGNED, AND ARE THE RECORDS MAINTAINED IN SUCH A                                     X
      MANNER THAT ADEQUATE, RELIABLE DATA ARE DEVELOPED FOR USE IN PRICING
      FOLLOW-ON ACQUISITIONS?
5.    IS THE ACCOUNTING SYSTEM CURRENTLY IN FULL OPERATION?                                                           X
      (If not, describe in Section I Narrative which portions are
      (1) in operation, (2) set up, but not yet in operation,
      (3) anticipated, or (4) nonexistent.)


Item 2.j.: This is not applicable as the contractor is in the service industry, not manufacturing.




                                                                                                    GSA FORM 1408 (REV. 9-88) BACK




                                                                        8

                                              XXXXXXXXXXXXXXXXXXXXX
            DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 2261–2001G10100003
            AUDIT REPORT NO. 2261-2002G10100007
            AUDIT REPORT NO. 2261-2003G10100014
            AUDIT REPORT NO. 2261-2004G10100039

                                                                   September 29, 2006

PREPARED FOR: National Science Foundation
              Office of Inspector General
              ATTN: Ms. Sherrye McGregor, JD
              4201 Wilson Blvd.
              Stafford II - Suite 705
              Arlington, VA 22230

PREPARED BY:     DCAA Great Lakes Branch Office
                 38701 Seven Mile Road, Suite 460
                 Livonia, MI 48152-1091
                     Telephone No.     (734) 805-3080
                     FAX No.           (734) 805-3090
                     E-mail Address    dcaa-fao2261@dcaa.mil

SUBJECT:         Report on Audit of FY’s 2001, 2002, 2003, and 2004 Incurred Costs

REFERENCES::     CO: NSF OIG 0541756
                 Relevant Dates: See Page 22

CONTRACTOR:      Compuware Corporation
                 One Campus Martius
                 Detroit, MI 48226

REPORT RELEASE RESTRICTIONS: See Page 23

                                                                                        Page
CONTENTS:        Subject of Audit                                                         1
                 Scope of Audit                                                           1
                 Results of Audit                                                        2
                 Contractor Organization and Systems                                     21
                 DCAA Personnel and Report Authorization                                 22
                 Audit Report Distribution and Restrictions                              23
                 Appendix – Certificates of Final Indirect Costs                         24




                         XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039
                                    SUBJECT OF AUDIT

        As you requested on December 16, 2005, we examined the Compuware Corporation’s (CC)
incurred cost proposals and related books and records for reimbursement of FY’s 2001, 2002,
2003, and 2004, incurred costs. The purpose of the examination was to determine allowability of
direct and indirect costs and recommend contracting officer-determined indirect cost rates for the
periods April 1, 2000, through March 31, 2001, (FY 2001); April 1, 2001, through March 31, 2002,
(FY 2002); April 1, 2002, through March 31, 2003, (FY 2003); and April 1, 2003, through March
31, 2004, (FY 2004). The proposed rates apply primarily to the flexibly-priced contracts listed in
Exhibit I, page 18. A copy of Compuware's Certificates of Final Indirect Costs, all dated October
5, 2005, are included as the Appendix to the report (see page 24).
       The proposals are the responsibility of the contractor. Our responsibility is to express an
opinion based on our examination.

                                      SCOPE OF AUDIT

       We conducted our examinations in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the examinations to
obtain reasonable assurance about whether the data and records examined are free of material
misstatement. An examination includes:

         • evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
         • examining, on a test basis, evidence supporting the amounts and disclosures in the
           data and records evaluated;
         • assessing the accounting principles used and significant estimates made by the
           contractor;
         • evaluating the overall data and records presentation; and
         • determining the need for technical specialist assistance.

       We evaluated the proposals using the applicable requirements contained in the:

         • Federal Acquisition Regulation (FAR); and
         • National Science Foundation Acquisition Regulation (NSFAR).

        For FY’s 2001, 2002, 2003, and 2004, we considered Compuware’s accounting system to
be adequate for accumulating, reporting, and billing costs on Government contracts, as described
in the Contractor Organization and Systems section of this report (page 21). Our assessment of
control risk reflects that we have not specifically tested the effectiveness of Compuware’s
systems and related internal controls. The scope of our examination reflects our assessment of
control risk and includes tests of compliance with laws and regulations that we believe provide a
reasonable basis for our opinion.

       The concurrent verification of labor was omitted in this examination.




                               XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039

                                    RESULTS OF AUDIT


Indirect Rates

      In our opinion, the contractor’s proposed indirect rates are acceptable as adjusted by our
examination. The examination results and recommendations are presented below.




Direct Costs

       In our opinion, claimed direct costs are acceptable and are provisionally approved,
pending final acceptance. Final acceptance of amounts proposed under Government contracts
does not take place until performance under the contract is completed and accepted by the
cognizant authorities and the audit responsibilities have been completed.

Indirect Costs Subject to Penalty

        Penalties for Unallowable Costs. For FY’s 2001 and 2002, the examination found
expressly unallowable costs subject to penalty of $102,767 and $98,362, respectively, in the
Overhead pools. Of those amounts $0 and $2,887, respectively, were allocable to the contracts
specified in FAR 42.709(b). This amount is recommended for penalty, but is less than the
$10,000 waiver threshold discussed in FAR 42.709-5. Additional information regarding the
penalties will be provided upon request.



                                               2

                               XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039

        For FY’s 2003 and 2004, indirect costs questioned in this examination are believed to be
subject to the penalties provided in FAR 42.709-1(a)(1). Our recommendations for each
questioned item are included in the notes to Exhibits E and G and their supporting schedules.
Affected contracts are identified in Exhibit I, page 18. Our recommendations concerning the
interest to be recovered on unallowable costs paid will be furnished when we have received your
determination on penalties to be assessed.

Cumulative Allowable Cost Worksheet (CACWS). The costs noted on the schedule of
cumulative allowable costs in Exhibit I, page 18, represent costs that are considered allowable
under the listed contracts and are, therefore, reimbursable. For those contracts identified as
“Ready to Close,” the information on the CACWS should be used to close out contracts.
Individual contract audit closing statements will only be issued if requested by the ACO.
However, please note that the information on the Prior Years Settled Costs was not available to
us at the time of the audit review. Therefore, the CACWS does not include prior year’s settled
or billed costs for Contract No. 9614054.

       We discussed the results of our examination with XXXXXXXXX, XXXXXXXXXXXX
XXXXX, and XXXXXXXXXX, XXXXXXXXXX, in an exit conference held on September 18,
2006. In response to our findings, the contractor has concurred with the questioned items. We
provided a draft copy of the Results of Audit Summary Schedules to the contractor’s
representatives at the exit conference.




                                               3

                               XXXXXXXXXXXXXXXXXXX
    Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
    2261-2004G10100039                                                  EXHIBIT A

                              SUMMARY OF CONTRACTOR’S CLAIMED
                                    FY 2001 OVERHEAD RATE
                                 AND RESULTS OF AUDIT REVIEW

                                      Compuware Corporation
                                        Detroit, Michigan




Minor differences due to rounding

    EXPLANATORY NOTES


    1.      The contractor’s proposed costs, as shown, are the net effect after numerous voluntary
    deletions for unallowable and unallocable costs. These voluntary deletions are too numerous to
    show in this audit report. However, they are available upon request.




                                                  4

                                    XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  EXHIBIT A
2.     Labor Overhead & All Other Expenses

       a.   Summary of Conclusions:

            We take no exception to the proposed labor overhead other indirect expenses.

       b.   Basis of Contractor’s Costs:

              The contractor’s based their claimed branch overhead expenses on the amounts
accumulated by Compuware in the respective general ledger accounts and expenses
assigned/reclassified to the branch overhead pool for the Washington DC branch. The labor
overhead pool consists primarily of fringe benefits. The branch overhead pool consists primarily
of utilities, depreciation, and facility type costs.

       c.   Audit Evaluation:

            We verified the proposed costs to the FY 2001, 2002, 2003, and 2004 general ledgers
for the period ended March 31, 2001, March 31, 2002, March 31, 2003, and March 31, 2004,
respectively. We reviewed prior year account balances to judgmentally select indirect accounts
for testing. We randomly and judgmentally selected transactions for testing and traced costs to
source documents, including vendor invoices, purchase orders, agreements and policies. We did
not note any costs that are considered to be unallowable, unreasonable, or not allocable to the
overhead pool. The internal controls were considered in our determination of the allowability
and allocability of the costs reviewed. Therefore, we have taken no exception to these claimed
indirect expenses.

3.     Subcontractor Hourly Expense, Rebilled Expenses, & Employee Welfare Costs

       a.   Summary of Conclusions:

            We have taken exception to the following indirect expenses:

                                           Questioned Costs
                                      FY 2001     FY 2002   FY 2003     FY 2004       Total
      Subcontractor Hourly Expense   $ 39,123    $ 75,557 $ 85,329     $ 212,003   $   412,012
      Rebilled Expenses                 21,577      74,784   212,654      87,733       396,748
      Employee Welfare Costs           102,767      98,362    36,712      33,355       271,196
      Total                          $ 163,467   $ 248,703 $ 334,695   $ 333,091   $ 1,079,956



            The questioned costs relate to the contractor’s failure to exclude Subcontractor Hourly
Expense and Rebilled Expense costs, which are direct contract costs and not allocable to indirect
costs in accordance with FAR 31.202. Costs claimed for Employee Welfare were incurred for gifts,
contributions, parties, and picnics, which are unallowable in accordance with the provisions of FAR
31.205-13. We consider the questioned Employee Welfare costs to be subject to penalties under the
provisions of FAR 42.709-1(a)(1).



                                                5

                                 XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  EXHIBIT A

       b.   Basis of Contractor’s Costs:

            The contractor based their claimed branch overhead expenses on the amounts
accumulated by Compuware in the respective general ledger accounts and expenses
assigned/reclassified to the branch overhead pool for the Washington DC branch. The
Subcontractor Hourly Expenses are for subcontractor direct labor and expenses. The Rebilled
Expenses represent those expenses that are “re-billed” and paid for by clients. The Employee
Welfare costs are primarily for gifts to employees, flowers for employees, the Compuware
Christmas party, and summer picnics.

       c.   Audit Evaluation:

             We verified the allocations and reconciled the costs claimed to the contractor’s
books and records. We performed transaction testing of selected high risk accounts and traced
selected items to source documents. We performed combined transaction testing of FY’s 2001,
2002, 2003, and 2004. Our performance of transaction testing in FY 2002 noted that the
contractor had included costs for Subcontractor Hourly Expense and Rebilled Expenses in the
Branch Overhead pool. These costs are directly identifiable to a final cost objective and should
have been removed from the indirect expenses at the time of rate submission preparation.
However, the contractor failed to exclude these costs. We then evaluated these accounts for the
other fiscal years under review and noted that these accounts had been included in the overhead
pools for all four years. As these costs are directly identifiable, they cannot be claimed as
indirect costs. Therefore, we have taken exception to these costs, in accordance with FAR
31.202, which states that “...Direct costs of the contract shall be charged directly to the contract.
All costs specifically identified with other final cost objectives of the contractor are direct costs
of those cost objectives and are not to be charged to the contract directly or indirectly.”

            Additionally, our transaction testing of FY 2002 Branch Overhead noted that the
contractor had included costs for Employee Welfare that were incurred for gifts to employees,
contributions in lieu of gifts, the Compuware Christmas party and summer picnic. These costs
are not allowable per the requirements of FAR 31.205-13(b) and (c). Further, these costs are
expressly unallowable and are subject to penalties under the provisions of FAR 42.709-1(a)(1).
Our analysis of the entire Employee Welfare account for FY 2002 noted that approximately
XXX percent were allowable costs in accordance with FAR 31.205-13. Therefore, we have
questioned XXXX percent of the costs claimed in this account as unallowable Employee Welfare
costs.

            In our opinion, the questioned costs are a result of the contractor’s lack of policies
and procedures to exclude these types of costs at the time of indirect rate preparation. However,
the contractor has taken corrective action and implemented new procedures to correct these
conditions, as evidenced by their preparation of FY’s 2005 and 2006 preliminary incurred cost
submissions.
       d.   Contractor’s Reaction:
            The contractor’s representative has concurred with the questioned costs.
                                                 6

                                XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  EXHIBIT A

4.     Direct Labor Allocation Base

       a.   Summary of Conclusions:

            We take no exception to the contractor’s claimed direct labor allocation base.

       b.   Basis of Contractor’s Costs:

             The contractor based their claimed overhead direct labor allocation base on the total
direct labor incurred at the Washington DC branch.

       c.   Audit Evaluation:

           We have evaluated the contractor’s claimed direct labor allocation base by
reconciling the costs claimed to the contractor’s general ledger for the fiscal year ended March
31, 2001. We also evaluated the allocation base to determine if the base was in accordance with
the provision of FAR 31.203(c), and took no exceptions.

5.     Contract Ceiling Rates

        Contract Number 9614054 contains indirect ceiling rates of XXXX percent for Overhead;
XXX percent for G&A at NSF (or Branch G&A); and XXX percent for G&A at Compuware (or
Corporate G&A). This contract has costs incurred in FY’s 2001, 2002, and 2003. For each of
these three fiscal years, we have questioned a portion of the contractor’s proposed overhead rate.
However, the contractor has only claimed the Overhead contract ceiling rate. Therefore, while
the proposed rate may be questioned, there is no impact on the amount of questioned costs, as the
contractor has claimed the Overhead ceiling rate. Please see Exhibit J, page 19, for the
calculation of the questioned costs by contract. Additionally, the contractor’s proposed G&A
rates are less than the contract ceiling rates for all three of these fiscal years. Please note that
Contract Number 0137903 does not contain indirect ceiling rates.




                                                 7

                                XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  EXHIBIT B

                          SUMMARY OF CONTRACTOR’S CLAIMED
                                   FY 2001 G&A RATE
                             AND RESULTS OF AUDIT REVIEW

                                      Compuware Corporation
                                        Detroit, Michigan




Minor differences due to rounding



EXPLANATORY NOTES

1.      The contractor’s proposed costs, as shown, are the net effect after numerous voluntary
deletions for unallowable and unallocable costs. These voluntary deletions are too numerous to
show in this audit report. However, they are available upon request.

2.      Branch G&A and Corporate G&A Expenses

        a.   Summary of Conclusions:

             We take no exceptions to the contractor’s claimed G&A expenses.

        b.   Basis of Contractor’s Costs:

            The proposed costs are general and administrative expenses accumulated by
Compuware in the respective general ledger accounts. The claimed costs consist primarily of
fringe benefits, utilities, depreciation, and facility costs, as well as corporate expenses.


                                               8

                                    XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  EXHIBIT B

       c.   Audit Evaluation:

            We judgmentally verified the allocations and reconciled the costs claimed to the
contractor’s books and records. We performed transaction testing of selected high risk accounts
and traced selected items to source documents and have accepted the costs, as claimed. We
performed combined transaction testing of FY’s 2001, 2002, 2003, and 2004. The internal
controls were considered in our determination of the allowability and allocability of the costs
reviewed. Therefore, we have taken no exception to these claimed indirect expenses.

3.     Total Cost Input Allocation Base

       a.   Summary of Conclusions:

            We take no exception to the contractor’s claimed total cost input allocation base.

       b.   Basis of Contractor’s Costs:

             The contractor based their claimed G&A total cost input allocation base on the total
costs incurred at the Washington DC branch.

       c.   Audit Evaluation:

             We evaluated the contractor’s claimed total cost input allocation base by reconciling
the costs claimed to the contractor’s general ledger for the fiscal years ended March 31, 2001;
March 31, 2002; March 31, 2003; and March 31, 2004. We also evaluated the allocation base to
determine if the base was in accordance with the provision of FAR 31.203(c), and took no
exceptions.




                                                9

                                XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  EXHIBIT C



                          SUMMARY OF CONTRACTOR’S CLAIMED
                                FY 2002 OVERHEAD RATE
                             AND RESULTS OF AUDIT REVIEW

                                      Compuware Corporation
                                        Detroit, Michigan




Minor differences due to rounding

EXPLANATORY NOTES

See the Explanatory Notes to Exhibit A, page 4.




                                               10

                                    XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  EXHIBIT D

                          SUMMARY OF CONTRACTOR’S CLAIMED
                                   FY 2002 G&A RATE
                             AND RESULTS OF AUDIT REVIEW

                                      Compuware Corporation
                                        Detroit, Michigan




Minor differences due to rounding



EXPLANATORY NOTES

See the Explanatory Notes to Exhibit B, page 8.




                                               11

                                    XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  EXHIBIT E

                          SUMMARY OF CONTRACTOR’S CLAIMED
                                FY 2003 OVERHEAD RATE
                             AND RESULTS OF AUDIT REVIEW

                                      Compuware Corporation
                                        Detroit, Michigan




Minor differences due to rounding

EXPLANATORY NOTES

See the Explanatory Notes to Exhibit A, page 4.




                                               12

                                    XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  Schedule E-1

         SCHEDULE OF UNALLOWABLE COSTS SUBJECT TO PENALTY
                     April 1, 2002 through March 31, 2003

                                      Compuware Corporation
                                        Detroit, Michigan




      Minor differences due to rounding




                                               13

                                 XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  EXHIBIT F

                          SUMMARY OF CONTRACTOR’S CLAIMED
                                   FY 2003 G&A RATE
                             AND RESULTS OF AUDIT REVIEW

                                      Compuware Corporation
                                        Detroit, Michigan




Minor differences due to rounding



EXPLANATORY NOTES

See the Explanatory Notes to Exhibit B, page 8.




                                               14

                                    XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  EXHIBIT G

                          SUMMARY OF CONTRACTOR’S CLAIMED
                                FY 2004 OVERHEAD RATE
                             AND RESULTS OF AUDIT REVIEW

                                      Compuware Corporation
                                        Detroit, Michigan




Minor differences due to rounding

EXPLANATORY NOTES

See the Explanatory Notes to Exhibit A, page 4.




                                               15

                                    XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                 Schedule G-1

         SCHEDULE OF UNALLOWABLE COSTS SUBJECT TO PENALTY
                     April 1, 2003 through March 31, 2004

                                      Compuware Corporation
                                        Detroit, Michigan




      Minor differences due to rounding




                                               16

                                 XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  EXHIBIT H

                          SUMMARY OF CONTRACTOR’S CLAIMED
                                   FY 2004 G&A RATE
                             AND RESULTS OF AUDIT REVIEW

                                      Compuware Corporation
                                        Detroit, Michigan




Minor differences due to rounding



EXPLANATORY NOTES

See the Explanatory Notes to Exhibit B, page 8.




                                               17

                                    XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, & 2261-2004G10100039   EXHIBIT I




Minor differences due to rounding




                                                              18

                                                 XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, & 2261-2004G10100039   EXHIBIT J

                                     SCHEDULE OF ALLOWABLE COSTS BY CONTRACT
                                                 Compuware Corporation
                                                   Detroit, Michigan




Minor differences due to rounding



                                                              19

                                                 XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  EXHIBIT J


EXPLANATORY NOTE


Subcontractor Labor

       a. Summary of Conclusions:

           We have taken exception to the contractor’s inclusion of applied overhead to their
subcontract labor incurred in FY’s 2002 and 2003 on Contract No. 0137903, as this labor has not
been included in their direct labor allocation base. Additionally, as the overhead expense pool
consists of mainly fringe benefit type costs, we do not see a causal beneficial relationship to
include the subcontract labor in the direct labor allocation base.

       b. Basis of Contractor’s Costs:

           The contractor based their subcontract labor costs on amounts billed to Compuware
for contract specific subcontract work.

       c. Audit Evaluation:

            We transaction tested the Subcontract Labor costs and reconciled the costs back to
the vendor invoices and timesheets. We have taken no exception to the costs incurred for FY’s
2002 and 2003. However, we noted that the contractor had included the costs in their direct
labor amounts and had applied overhead to them. We have taken exception to the contractor’s
inclusion of overhead on these costs, as they have not been included in the contractor’s direct
labor allocation base used to calculate the overhead rate. Further, as the pool expenses are
primarily fringe benefit type expenses, we do not see a causal beneficial relationship, as required
by FAR 31.203(c). The contractor has not incurred subcontract labor for FY’s 2001 and 2004.

           In our opinion, the questioned costs are a result of the contractor’s lack of policies
and procedures to exclude these types of costs at the time of indirect rate preparation. However,
the contractor’s has taken corrective action and implemented new procedures to correct these
conditions, as evidenced by their preparation of FY’s 2005 and 2006 preliminary incurred cost
submissions.

       d. Contractor’s Reaction:

           The contractor’s representative has concurred with the questioned costs.




                                                20

                                XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039

                    CONTRACTOR ORGANIZATION AND SYSTEMS


1.     Organization

       Compuware Corporation (CC) was incorporated in the state of Michigan in 1973.
Compuware is primarily engaged in software development and information technology services.
Revenue for the fiscal year ended March 31, 2004, was approximately XXXXXXXXXX, of this
amount, U.S. Government sales are less than one percent. Compuware maintains locations
throughout the United States and worldwide. Compuware currently employs approximately
XXXXX employees.

2.     Accounting System

       Compuware's accounting period is from April 1 to March 31. CC maintains a job order
accounting system for contract costs. CC maintains an accounting system on the accrual basis in
accordance with Generally Accepted Accounting Principles. CC's accounting system is posted
on a current basis. Appropriate adjusting entries are made at the end of each month and year.
The accounting firm of Deloitte & Touche, LLC audited CC's FY’s 2001, 2002, 2003, and 2004
financial statements. The contractor currently uses the Oracle accounting software program.

         We performed an accounting system review in conjunction with the incurred cost
reviews, under Audit Assignment Number 2261-2006G17740016, which will be issued in the
near future. In our opinion, CC's accounting system is adequate, for the accumulation, reporting,
and billing of costs on government contracts. In these reviews, the internal controls were
evaluated to the extent necessary to make a determination of the allowablility and allocability of
the transactions tested.




                                               21

                               XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039

DCAA PERSONNEL
                                                                       Telephone No.
Primary contacts regarding this audit:
         Judy C. Heater-Unsworth, Auditor                              (313) 363-8046
         Norman S. Rea, Supervisory Auditor                            (734) 805-3083

Other contacts regarding this audit report:
         Richard J. AhKao, Branch Manager                              (734) 805-3080
         Marc Parvin, Sr. Financial Liaison Advisor                    (703) 767-2271

                                                                          FAX No.
         Great Lakes Branch Office                                     (734) 805-3090
         Marc Parvin, Sr. Financial Liaison Advisor                    (703) 767-2279

                                                                       E-mail Address
         Great Lakes Branch Office                                 dcaa-fao2261@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil/.



                                     RELEVANT DATES


NSF Request for Audit Dated December 16, 2005; Received December 16, 2005.


AUDIT REPORT AUTHORIZED BY:



                                                            Norman S. Rea
                                                      /for/ RICHARD J. AHKAO
                                                            Branch Manager
                                                            DCAA Great Lakes Branch Office




                                               22

                               XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039

               AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION

                                                             E-mail Address
National Science Foundation                           smcgrego@nsf.gov
Office of Inspector General
ATTN: Ms. Sherrye McGregor, JD                        dwillems@nsf.gov
4201 Wilson Blvd.
Stafford II - Suite 705
Arlington, VA 22230

Defense Contract Audit Agency                         DCAA-SRFLA-NONDoD-
ATTN: OAL – Sr. FLA NonDoD Army Team 1 Marc Parvin    ARMY-Team1@dcaa.mil
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-6219

Compuware Corporation
One Campus Martius
Detroit, MI 48226
(Copy furnished thru ACO)



RESTRICTIONS

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                       23

                            XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                                  APPENDIX




                                       24

                          XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                               APPENDIX




                                       25

                          XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                               APPENDIX




                                       26

                          XXXXXXXXXXXXXXXXXXX
Audit Report Nos. 2261-2001G10100003, 2261-2002G10100007, 2261-2003G10100014, &
2261-2004G10100039                                               APPENDIX




                                       27

                          XXXXXXXXXXXXXXXXXXX
